     Office ofInspector General




SRORule Filing Process

          March 31,2008
           Audit No. 438
                                                 UNITED STATES
                          SECURITIES AND EXCHANGE COMMISSION
Office ofInspector                         WASHINGTON, D.C. 20549
     General


            To:      Erik Sirri, Director, Division of Trading and Markets
                     Nancy Morris, Director, Office of the Secretary
                     Corey Booth, Director, Office of Information Technology

            From: H. David Kotz, Inspector Gener;/!     JJ{
            Date: March 31,2008

            Re:      Office of Inspector General Audit - SRO Rule Filing Process (No. 438)

            Attached is our final audit report on the Division of Trading and Market's SRO Rule
            Filing Process. Your comments to the draft reports have been incorporated as
            appropriate.

            Commission management agreed with all 19 of our recommendations. We
            appreciate the courtesy and cooperation that was extended to our staff during this
            audit.

            Attachment

            cc:      Peter Uhlmann
                     Diego T. Ruiz
                     Bob Colby
                     Florence Harmon
                     Marlon Paz
                     Elizabeth King
                     David Shillman
                     James Brigagliano
                     Kathy England
                     Joe Morra
                     Herb Brooks
                     Dan Lisewski
                     Darlene Pryor

                     Richard Hillman, GAO
                              Table of Contents


Executive Summary                                                             1

Objectives, Scope and Methodology                                             2

Background                                                                    3

Audit Results                                                                 7

         Timeliness                                                           8

         Review of SRO Rules                                                 15

         SRO Rules Containing Comment Letters                                18

         Posting Proposed Rule Changes on the Internet                       20

         SRTS                                                                20

         FISMA                                                               22

         Document Imaging of SRO Official Rule Files                         22

         Document Retention                                                  23

         Commission Website                                                  24

         SRO File Room                                                       24

         SRO Survey                                                          24

Discussion of Management's Comments                                          26

Tables
      1.   Proposed Rule Changes Processed October to December 31,2007        9
      2.   Rules that Took Longer than 35 Days to Finalize                   10
      3.   Open Proposed Rule Changes, as of December 31,2007                11
      4.   Proposed Rule Changes Open More than 180 Days                     12
      5.   Sample of Proposed Rule Changes Open More than One Year           13
      6.   Completeness of Official SRO Rule Files                           16
      7.   SRTS Data Accuracy                                                17

SRO RULE FILING PROCESS                                     MARCH 31, 2008
AUDIT 438
      8. SRO Rules Containing Comment Letters        ~           18

Appendices
     Abbreviations                                       Appendix A
     Rules Selected for Review                           Appendix B
     Commission Form 19b-4                               Appendix C
     Sampling Methodology                                Appendix D
     Management's Comments                               Appendix E
     List of Recommendations                             Appendix F




SRO RULE FILING PROCESS                         MARCH 31, 2008
AUDIT 438
      SRO RULE FILING PROCESS

                      EXECUTIVE SUMMARY
The Office of Inspector General of the Securities and Exchange Commission conducts
regular audits and inspections ofAgency operations to promote the effectiveness,
integrity and efficiency of the Commission.
We conducted an audit of the Commission's process for reviewing Self-Regulatory
Organization (SRO) proposed rule changes. An SRO is a non-government
organization that has the power to create and enforce industry regulations and
standards. SROs include among others, national securities exchanges and securities
associations registered with the Commission such as the New York Stock Exchange
and the American Stock Exchange. The SROs are required to file proposed rule
changes with the Commission in order for the rules to become effective. The
Commission approves certain rules before they can take effect, while other rules are
effective upon filing, without Commission approval.
We found that the Commission s overall timeliness in processing proposed rule
changes needs improvement. The Commission did not approve proposed rule changes
within the prescribed statutory timeframe in 8 of 15 instances that we judgmentally
selected to review. Additionally, the Division of Trading and Markets (TM) does not
have a policy that outlines criteria to follow-up with SROs on open proposed rule
changes, request SROs to withdraw proposed rule changes, and disapprove or reject
proposed rule changes. The establishment and adherence to such a policy would
improve TM's timeliness in processing proposed rule changes. Timely processing
assists the SROs to remain competitive with foreign and futures exchanges, electronic
communications networks and alternative trading systems that can change their
trading or trade new products with greater ease and without Commission review.
We also found that one SRO did not post two proposed rule changes to its website
within two days of filing them with the Commission, as required by Rule 19b-4 of the
Exchange Act. TM should remind the SROs of this requirement.
We identified several TM official SRO rule files that were incomplete and found that
TM did not have a written policy identifying all of the documents to be included in
such a file. Additionally, public comment letters were not always available on the
Commission's website, in TMs official rule files or listed in the SRO Rule Tracking
System (SRTS).
We found that a sample of data from the SRTS system was accurate and entered
timely overall, but staff did not consistently record whether the electronic information
received included a valid digital signature. A digital signature provides assurance
that the information received has not been altered. We further identified
enhancements that should be made to SRTS.


SRO RULE FILING PROCESS                                                 MARCH 31, 2008
AUDIT 438
                                                                                                                     Page 2


Management concurred with all 19 of our recommendations. Their formal written
response is included as Appendix E.


  OBJECTIVES, SCOPE AND METHODOLOGY
Objectives. Our audit objectives were to:
     1. Verify Commission compliance with the requirements described in the
        Securities Exchange Act of 1934 (Exchange Act) and with the Division of
        Trading and Market's (TM) policies and procedures;
     2. Evaluate TM's Self-Regulatory Organization (SRO) Rule Tracking System
        (SRTS) to determine:
                a. The accuracy and timeliness of a sample of SRTS data;
                b. The appropriateness of employee and contractor access to SRTS;
                c. Whether SRTS has been subject to appropriate security reviews; and
                d. If any enhancements should be made to SRTS.
     3. Follow-up on recommendations made in the prior OIG audit ofTM's SRO
        Rule Filing process (Commission Review of SRO Rules, Audit No. 272, July
        14, 1998) and;
     4. Identify improvements to the Commission's SRO Rule Filing process.

Scope. The scope of the audit covers 1,014 proposed rule changes the Commission
processed in 2006 and 1,143 in 2007 as well as all open proposed rule changes as of
November 7,2007. We conducted our fieldwork from September 2007 to February
2008.

Methodology. The audit included reviewing a judgmental sample of 56 SRO rules
that the Commission processed or finalized 1 in 2007. See Appendix B. To select this
sample we chose rules from 14 SROs, ensuring that rules with and without
amendments were selected as well as rules filed pursuant to Sections 19(b)(2) and
19(b)(3)(A) of the Exchange Act. We selected 4.9 percent (56 of 1,143) of the rules
processed in 2007. We also judgmentally selected 20 rules processed in 2006 that
contained comment letters and 10 rules that were open (i.e., not finalized) for more
than one year. (See discussion of sampling methodology in Appendix D).
We interviewed Commission staff in TM, the Office of the Secretary (OS) and one
Commissioner. We reviewed and relied upon relevant information in the Exchange
Act, the Code of Federal Regulations, TM's policies and procedures, TM's official rule
files, and Commission management reports on SRO proposed rule changes. We
reviewed the accuracy of SRTS data, employee access to SRTS and the process for

1 The report uses the terms "processed". "finalized", or "final action" to refer to proposed rule changes that the
Commissi.on approved or were effective immediately upon filing. without Commission approval. The Commission
approves proposed rule changes filed pursuant to Section 19(bX2) of the Exchange Act. Proposed rule changes filed
pursuant to Section 19(bX3)(A)of the Exchange Act are not approved by the Commission, as explained on page 4 of this
report.


SRO RULE FILING PROCESS                                                                                MARCH 31, 2008
AUDIT 438
                                                                                                               Page 3


granting SRTS access to employees. We also surveyed SRO staff to obtain their
views on the Commission's SRO rule filing process.
We surveyed SRO officials who file proposed rule changes with the Commission to
obtain their views on the Commission's processing of SRO proposed rule changes.

Use of Computer-Processed Data. We relied on computer-processed data from
the SRTS system. While we did not extensively test the system's internal controls,
we found that a sample of data from the system was accurate overall and we believe
the information generated by this system and used by us was sufficiently reliable for
our audit objectives.

Prior Audit Coverage. Commission Review of SRO Rules, Audit No. 272, issued
July 14, 1998.

Management Controls. Management controls were not a part of our objectives
and were not reviewed.

We conducted this performance audit in accordance with generally accepted
government auditing standards, except that we did not extensively test the SRTS
system controls because this was not a part of our objectives. The standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence that
provides a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.


                                         BACKGROUND
SROs include among others, national securities exchanges and securities
associations registered with the Commission, such as the New York Stock Exchange
and the American Stock Exchange. Congress adopted self-regulation, as opposed to
direct Federal regulation of the securities markets, to prevent excessive government
involvement in market operations, which could hinder their competition and market
innovation. Also, Congress concluded that self-regulation with federal oversight
would be more efficient and less costly to taxpayers. 2
SROs maintain an established set of rules which govern the activity of their
members and their organization. TM began receiving SRO proposed rule changes in
1976, after an amendment to the Exchange Act was implemented. An SRO
generally must file a proposed rule change 3 with the Commission prior to the rule's

2 General Accountability Office Report No. 08-33, page 1.
3 Under Section 19(b)(1)    of the Exchange Act, the term "proposed rule change" encompasses "any proposed rule, or any
proposed change in, addition to, or deletion from the rules of' an SRO. 15 U.S.C. § 78s(b)(1). Section 3(a)(27) of the
Exchange Act defines "rules of an exchange", "rules of an association", or "rules of a clearing agency" as "the constitution,
articles of incorporation, bylaws, and rules, or instruments corresponding to the foregoing, of an exchange, association of
brokers and dealers, or clearing agency, respectively and such of the stated policies, practices, and interpretations of
such exchange, association, or clearing agency as the Commission, by rule, may determine to be necessary or
appropriate in the public interest or for the protection of investors to be deemed to be rules of such exchange, association,
or clearing agency." 15 U.S.C. § 78c(a)(27).


SRO RULE FILING PROCESS                                                                               MARCH 31, 2008
AUDIT 438
                                                                                                                Page 4


implementation. The Commission will then publish the proposed rule in the Federal
Register (Notice) to allow for public comment, review any comments received, and
take action to finalize the proposed rule. This filing requirement helps ensure,
through Commission review and the public comment process that the SROs carry-
out the purposes of the Exchange Act. Rule 19b-4 of the Exchange Act governs the
requirements for the SRO rule filing process.
Proposed rule changes range from routine to complex. The Commission approves
most rules by authority delegated to TM.4 Any proposed rule change that has been
approved by delegated authority can be challenged after the Commission issues the
approval order. 5 If the Commission has expressed an interest in a particular
proposed rule change or the subject matter addressed by the proposal, or if the TM
staff are aware that a particular proposal is controversial, the staff will send the
proposal to the Commission for its review either by seriatim or for joint
consideration by the Commission at a public meeting.
The Commission processed 1,014 proposed rule changes in 2006 and 1,143 in 2007. 6
Approximately eighty-five percent of the proposed rule changes were reviewed by
TM staff in the Office of Market Supervision and the remainder was reviewed by
personnel in other offices within TM. Several TM managers specialize in and
routinely review proposed rule changes pertaining to specific subject areas.
Proposed rule changes may cover organizational and administrative issues, fees,
rebates, membership and listing requirements, trading rules, financial products
traded, derivatives, new trading systems, business conduct, disciplinary procedures,
and record retention plans. The primary types of proposed rule changes are
described below:
            Section 19(b)(2). The SRO submits a proposed rule change for notice,
            comment and approval. The Commission must allow for public comment by
            publishing the proposed rule change in the Federal Register and either:
                 •      Approve the proposed rule change within 35 days following its
                        publication for comment, absent certain circumstances 7 or
                 •      Institute proceedings to determine whether the proposed rule change
                        should be disapproved within 180 days following publication for
                        comment, absent certain circumstances. 8
            The SRO may ask the Commission to accelerate its review and approval of a
            proposed rule change filed pursuant to section 19(b)(2) ofthe Exchange Act. The
            Commission may grant accelerated approval if it finds good cause for doing so
            and publishes its reasons in the Federal Register. In general, the Commission
            accelerates approval of a proposed rule change simultaneous with publishing it for

4              .
    17 C.F.R. § 200.30-3(a)(12).
5 Rule 430 of the Commission's Rules of Practice sets forth the timeframes within which a notice of intention to petition for
review must be filed.
6 Ofthe 1,014 rules processed in 2006, 479 were 19(b)(2) rules and 535 were 19(b)(3)(A) rules. Of the 1,143 rules
frocessed in 2007, 511 were 19(b)(2) rules and 632 were 19(b)(3)(A) rules.
  The Commission may designate up to 90 days to take action on a proposed rule change if it finds it necessary and
Rublishes its reasons; or the SRO may consent to a time extension. Exchange Act §19(b)(2).
  The Commission may extend the time for conclusions of such proceedings up to 60 days if it finds good cause and
published its reasons; or the SRO may consent to a time extension. Exchange Act §19(b)(2)(B).


SRO RULE FILING PROCESS                                                                               MARCH 31, 2008
AUDIT 438
                                                                                                               Page 5


          comment. Thus, the comment period follows approval and any changes to the
          rule in response to the comments must be done by the SRO on its own initiative or
          by the Commission using its authority under Section 19(c) ofthe Exchange Act.
          Section 19(b)(3)(A). The proposed rule change is effective immediately
          upon the SRO filing. 9 The proposed rule change must:
                •    Constitute a stated policy, practice, or interpretation with respect to
                     the meaning, administration or enforcement of an existing SRO rule;
                •    Establish or change a due, fee or other charge imposed by an SRO; or
                •    Concern solely SRO administration or other matters that the
                     Commission, by rule, may specify, consistent with the public interest
                     and the purposes of section 19(b) of the Exchange Act.
          The Commission does not approve these proposed rule changes, but does have
          60 days from the date the changes are filed to abrogate the rule change and
          require the proposal be re-filed and reviewed under Section 19(b)(2) of the
          Exchange Act, if necessary or appropriate in the public interest, for the
          protection of investors, or otherwise in furtherance of the statute.
SRTS and EFFS
TM worked closely with the Office of Information Technology (OIT) to develop SRTS
and the Commission's Electronic Form 19b-4 Filing System (EFFS). See Appendix C.
These systems allow for the electronic submission and tracking of proposed rule
changes. TM began using SRTS in 2002 and the SROs began using EFFS in 2004.
Prior to EFFS, the SROs submitted proposed rule changes in paper form to the
Commission.
The SROs electronically submit proposed rule changes into the EFFS system. EFFS
interfaces with SRTS and populates SRTS with key information about an SRO's
proposed rule change such as the SRO filing date, the date any related amendments
were received, the type of proposed rule change, and SRO contact information.
SRTS calculates the comment period expiration date and the final action due date.
SRTS also contains an inbox where TM staff receive assigned proposed rule changes
and a docket, allowing TM staff to record important developments about the status
of a proposed rule change. TM staff and staffers in other divisions have varying
levels of access to SRTS ranging from read-only access to full access, which enables
staff to assign proposed rule changes to other staff, change information and develop
management reports.
Commission Review Process
All the SRO proposed rule changes are received in the Gatekeepers inbox in SRTS.
TM has a primary and backup gatekeeper per SRO. The gatekeeper reviews the
proposed rule change and should ensure that an SRO's digital signature lO is valid.

9 A Section 19(b)(3)(A) filing normally becomes operative upon filing with the Commission, except for a proposal
submitted pursuant to Rule 19b-4(f)(6), which becomes operative 30 days after the date of filing with the Commission or
such shorter time as the Commission may designate if consistent with the protection of investors and the public interest
and certain other requirements are met. 17 C.F.R. § 240.19b-4(f)(6)(iii).
10 A digital signature is an electronic signature that can be used to authenticate the identity of the sender of a message or .
the signer of a document, and help ensure that the original content of the message or document that has been sent is
unchanged.


SRO RULE FILING PROCESS                                                                               MARCH 31, 2008
AUDIT 438
                                                                                Page 6


The gatekeeper then assigns the proposed rule change to senior manager in TM.
The senior manager subsequently assigns the proposed rule change to an Associate
Director, a principal attorney and possibly a staff attorney in TM. Assigned
proposed rule changes are displayed in the SRTS inboxes of the assigned staff
members.
TM staff review the proposed rule change to determine if it is properly filed, and in
compliance with the Exchange Act as required in the instructions to the
Commission's Electronic Form 19b-4. Generally, this involves ensuring the SRO has
included required exhibits and that the proposed rule change is clear, complete, and
written with sufficient clarity to elicit meaningful public comments. The
documentation from the SRO must also allow the Commission to determine whether
the proposed rule change is consistent with the requirements of the Exchange Act
and the rules and regulations thereunder applicable to the SRO.
If TM's preliminary review concludes that the proposed rule change is properly filed,
the Commission will generally Notice the proposal to solicit public comments. There
is no statutory timeframe stating when the Commission must Notice a proposed rule
change. However, TM attempts to Notice Section 19(b)(3)(A) proposed rule change
within two to three weeks of receipt. A proposed rule change filed pursuant to
Section 19(b)(2) requires slightly more review time than one filed pursuant to
Section 19(b)(3)(A) because it is usually more complex in substance than one that is
effective upon filing. If the proposed rule change is poorly drafted, requires changes
or amendments, or raises policy issues under the Exchange Act, it can take longer to
be Noticed. Regardless of the type of proposed rule change, Commission attorneys
consult with SRO attorneys about pending proposed rule changes on a regular basis.
The Commission solicits comments on all proposed rule changes. Generally, the
comment period is 21 days, commencing on the date the proposed rule change
appears in the Federal Register. On rare occasions, the Commission, after
consulting with the SRO, will provide an abbreviated comment period for as little as
15 days. As a general rule, the Commission will consider any comment letter it
receives, even if the letter arrives after the expiration of the comment period,
provided that it arrives before the date that the Commission takes final action on a
proposed rule change. Most rule changes do not elicit public comments.
Ultimately, the Commission issues an order that provides a detailed summary of the
procedural history of the proposed rule change, the substance of the commenters'
concerns and any response to the comments provided by the SRO if applicable, the
Commission's findings, and final action.
After final action has been taken on the proposed rule change, TM completes the
preparation of the rule's official file, which should consist of the rule filing, any
amendments and related information. TM retains rule files on-site for
approximately five years and then stores the files at an off-site storage facility.
Withdrawals, Rejections and Disapprovals
A proposed rule change can be withdrawn, rejected or disapproved. TM may ask an
SRO to withdraw a proposed rule change when concerns come to light after it has
been published for comment or when an SRO fails to timely amend a proposed rule
change. An SRO may also withdraw a proposed rule change on its own initiative.


SRO RULE FILING PROCESS                                                  MARCH 31, 2008
AUDIT 438
                                                                           Page 7


According to TM, in 2006 and 2007, 96 and 46 proposed rule changes were
withdrawn by the SROs, respectively.
The Commission may reject a proposed rule change that is incomplete, unclear, or
otherwise fails to comply with Rule 19b-4. According to TM, in 2006 and 2007, 127
and 138 proposed rule changes were rejected by the SROs, respectively.
The Commission may disapprove a proposed rule change if it is inconsistent with the
Exchange Act. The disapproval process in lengthy and complex. To disapprove a
proposed rule change, the Commission must first institute proceedings to determine
whether the proposed rule change should be disapproved. Such proceedings must
include notice of the grounds for disapproval under consideration, and an
opportunity for a hearing, and must be concluded within 180 days of the date of
publication of notice of the filing of the proposed rule change. At the conclusion of
such proceedings the Commission, by order, may disapprove a proposed rule change
if it finds that that the proposal is not consistent with the requirements of the
Exchange Act and the rules and regulations thereunder applicable to the SRO. 11
The Commission rarely disapproves a proposed rule change and did not disapprove
any in 2006 or 2007.
Comment Letter Log
OS manages the comment letter process by logging the comment letters received
into a Microsoft Access database, which interfaces with and populates SRTS with
information about the comment letters received. OS also posts comment letters to
the Commission's website at www.sec.gov.
Changes to the Rule Filing Process
In 1994, the Commission amended Rule 19b-4 to allow for additional proposed rule
changes to become immediately effective upon filing and without Commission
approval. In 1998, the Commission again amended Rule 19b-4 to streamline the
listing and trading of certain derivative securities to enable exchanges to remain
competitive with foreign and over-the-counter derivatives markets.
In 2001, the Commission proposed to allow most exchange trading rules to become
effective immediately upon filing with the Commission. This proposed rule also
would have imposed several new obligations on the SROs. The Commission received
several negative comments on the proposal and did not act on the proposed changes.
During the audit, TM was considering ways to further streamline the SRO rule
filing process.


                          AUDIT RESULTS
Overall, the SRO rule filing process was well-organized and SRO officials were
complimentary of Commission staff. We found, however, that the Commission did
not consistently finalize proposed rule changes within the statutory timeframe set
forth in the Exchange Act. The Commission should improve its overall timeliness in
processing proposed rule changes. One SRO did not post two proposed rule changes

11 See footnote 8.


SRO RULE FILING PROCESS                                              MARCH 31, 2008
AUDIT 438
                                                                               Page 8


to its website within two days of filing them with the Commission, as required by
Rule 19b-4, which governs the requirements for the SRO rule filing process. TM
should periodically remind all of the SROs of this requirement.
The SRTS data, according to our sample tested, was accurate overall and timely
entered. We identified areas where SRTS could be enhanced.
While all of our recommendations identified in the prior OIG audit report on the
SRO Rule Filing process were closed out, the report identified timeliness issues in
Noticing and finalizing proposed rule changes (Commission Review of SRO Rules,
Audit No. 272, issued July 14, 1998).
We identified several improvements to the Commission's SRO Rule Filing Process,
as described in this report.
During the audit, OIT worked with TM staff to address some of the issues that we
brought to their attention by ensuring that SRTS is subject to an annual security
review, fixing technical problems with SRTS and removing SRTS access from
persons who should not have had access. We appreciate OIT and TM's prompt
response in resolving these issues.
Our detailed findings and recommendations are described below.

TIMELINESS
It is important for the Commission to timely process proposed rule changes. Timely
processing assists the SROs to remain competitive with foreign and futures
exchanges, electronic communications networks and alternative trading systems
that can change their trading or trade new products with greater ease and without
Commission review.

While TM does not have a set timeframe to issue a Notice release for a proposed rule
change, nor is there a statutory timeframe, we believe that doing this within 30 days
is generally reasonable, based on our discussions with TM and SRO staff and our
additional audit work. The statutory timeframe to finalize a proposed rule change is
generally 35 days from the Notice release date for proposed rule changes filed
pursuant to Section 19(b)(2) of the Exchange Act. 12

Timeliness According to Commission Management Reports
TM produces various reports that provide information about how long it took the
Commission to process proposed rule changes. According to one of these reports, the
Commission processed 300 proposed rule changes from October 1, 2007 to December
31,2007. From the receipt date of each SRO's proposed rule change or the latest
amendment (if applicable), the rules were processed as follows (see Table 1):

     •    Sixty-four percent (193 of 300) were processed in 30 days or less from the
          receipt date;
     •    Eighteen percent (55 of 300) were processed 31- 60 days from the receipt
          date;

12 See footnote 7.


SRO RULE FILING PROCESS                                                  MARCH 31, 2008
AUDIT 438
                                                                                                                                                                                         Page 9


    •   Six percent (17 of 300) were processed 61- 90 days from the receipt date;
    •   Six percent (18 of 300) were processed 91- 180 days from the receipt date; and
    •   Six percent (17 of 300) were processed more than 180 days from the receipt
        date.
        Table 1. Proposed Rules Changes Processed from October 1,2007 to
                 December 31, 2007


           'tJ
            ~ 250 .,...-:-:-~.,.....-;-.,.....-;-.,.....-;-.,.....-;-~,...,....,...,.....-;-.,.....-;-.,.....-;-.,.....-;-.,.....-;-.,.....-;-~;-""'""".,.....-;-~;-""'""";-""'"""...,
            e
            ~      200 +---=======--__f'___----"-----'--__f'___~~=__'_":=__f'_____f'___-'-'-....,,...._'___':_'_____f'____i7+~
           <
            II)
            CI)
                   150
            ::J
           ~       100
           '0...      50
            CI)
           .c
            E            0
            ::J
           Z                             < 30                        31-60                        61-90                       91-180                          >180
                                               Number of Days to Approve, from Receipt


Timeliness According to Audit Sample Data
Based on the 56 proposed rules we reviewed, we found that 28 were filed pursuant to
Section 19(b)(2) of the Exchange Act and the remaining rules were filed pursuant to
Section 19(b)(3)(A), and thus were effective immediately upon filing.

Only the 28 rules filed pursuant to Section 19(b)(2) were subject to the Notice and
approval process. Fifty-four percent (15 of 28) of these rules were Noticed and had a
separate approval order and forty-six percent (13 of 28) were granted accelerated
approval. The 13 rules that were granted accelerated approval were Noticed and
approved on the same date with a single Commission approval order.

The average time it took to issue a notice relea~e for these 28 rules, from the date
they were received by the Commission was 57 days, broken out as follows:

   •    Sixty-seven days for the 15 rules that were not granted accelerated approval;
        and
   •    Forty-four days for the 13 rules that were granted accelerated approval.

In addition, it took over 30 days to issue a Notice release for 54 percent (15 of 28) of
the proposed rules.

        Recommendation A
        TM should establish a division-wide goal for issuing a Notice release for
        proposed rule changes within a certain period of time (e.g., generally 30 days
        from receipt). TM should track its progress in meeting this goal.



SRO RULE FILING PROCESS                                                                                                                                                      MARCH 31, 2008
AUDIT 438
                                                                                Page 10


Twenty-seven percent (15 of 56) of the rules we reviewed were subject to a 35-day
statutory timeframe to finalize, from'the Federal Register Notice date. Fifty-three
percent (8 of 15) rules took more than the 35-day statutory timeframe to finalize,
from the Federal Register Notice date. See Table 2. According to SRTS, there were
two instances where TM waited for an amendment, or other information from the
SROs, but extensions were not granted.

Table 2. Rules That Took Longer than 35 Days from the Notice Date to Finalize,
         In V·10 I·
                 ahon 0 fthe Statutory R~equlfement


                                                                                   Days to
                         Last             Federal                                  Finalize,
           SEC           Amendment        Register     SEC                         from
           Received      Received         Notice       Approval       Days to      Notice
Rule       Date          Date            Date          Date           Notice *     Date     **
AMEX
2007-35    4/5/2007      8/20/2007       9/6/2007       10/12/2007       154              36
AMEX
2007-08    1/19/2007     -----            2/2/2007     3/13/2007          14              39
ISE
2006-78    12/13/2006    -----           2/12/2007     3/29/2007          61              45
FINRA
2007-1     7/31/2007     -----           8/9/2007      9/28/2007          9               50
DTC
2007-04    4/19/2007     -----           6/28/2007     8/17/2007          70              50
acc
2007-06    4/20/2007     6/14/2007       6/27/2007     8/20/2007         68               54
DTC
2006-07    3/28/2006     9/29/2006        12/20/2006   2/27/2007         267              69
ISE
2006-62    10/1112006    1/5/2007         10/20/2006   1/24/2007          9               96
* The number of days between the SEC received date and the Federal RegLster NotLCe date.
** The number of days between the Federal Register Notice date and the SEC approval date.

       Recommendation B
       TM should establish a policy to ensure that it meets the statutory timeframe
       for finalizing proposed rule changes that have been Noticed in the Federal
       Register. TM should track its progress in adhering to this policy.

Open Proposed Rule Changes According to Commission Management Reports
TM produces various reports that provide information about how long proposed rule
changes have been open and why they are still open. According to one of these
reports, as of December 31,2007, the Commission had 226 open proposed rule
changes, as follows:

   •   Two hundred two proposed rule changes were filed under 19(b)(2) and
       twenty-four were filed under 19(b)(3)(A);

SRO RULE FILING PROCESS                                                  MARCH 31, 2008
AUDIT 438
                                                                                                                                                     Page 11


   • The oldest proposed rule change was open for more than four years;
   • The proposed rule changes were open on average for 229 days; and
   • The proposed rule changes were open for 115 median days.
From the latter of the receipt date for each SRO's proposed rule change or the latest
amendment received date (if applicable), these 226 open proposed rule changes were
pending as follows (See Table 3):

   •   Thirty-four percent (76 of 226) were pending action for 30 days or less from
       the receipt date;
   •   Thirteen percent (30 of 226) were pending action for 31-60 days from the
       receipt date;
   •   Nine percent (21 of 226) were pending action for 61-90 days from the receipt
       date;
   •   Fifteen percent (35 of 226) were pending action for 91-180 days from the
       receipt date; and
   •   Twenty-eight percent (64 of 226) were pending action for more than 180 days
       from the receipt date, for the following stated reasons (see Table 4):
           o Forty-one, awaiting an SRO response.
           o Three, contrary to Commission policy.
           o Nine, waiting on non-TM division or office.
           o Three, waiting on TM policy decision.
           o Eight, reviewing information received within 60 days.

       Table 3. Open Proposed Rule Changes, as of December 31,2007

                  80   --r-c--'-"~""""","'--"'''''''-'--'-''",--",,,,--,,,,,,,,,,,,,,=,,,,,,,,,,,,,,,,,,,,,,-=-,,,,--,,,--=~,,,,,,,,,,,=---:::-,,,,,,,,,,,=,,,,,,,,,,,=,,,

                  70
           lB     60
           ~      50
          '0...   40
          ~       30
          E
           :::J   20
          z
                  10
                   o
                                 < 30                        31-60                       61-90                      91-180                         >180
                                                            Number of Days Pending Action




SRO RULE FILING PROCESS                                                                                                                   MARCH 31, 2008
AUDIT 438
                                                                                            Page 12


       Table 4. Proposed Rule Changes Open More than 180 Days, as of December 31,2007

                  45

                  40

                  35
           II)
           C)
           c 30
          u::     25
          '0...
           CI)    20
          .Q
           E
           :::J 15
          z
                  10

                   5

                  0
                       Awaiting SRO   Contrary to   Waiting on non- Waiting on 1M      Comrrission
                        Response      Commission          1M        R>licy Decision     Review of
                                        R>licy      IJvision/Office                    Information
                                                                                      Received w lin
                                                                                         60 days

                                             Reason Filing is Open



As illustrated in Tables 3 and 4 above, as of December 31,2007, the Commission had
226 open proposed rule changes, 64 of which were pending action for more than 180
days from the receipt date.

Open Proposed Rule Changes According to Audit Sample Data
Table 5 shows our judgmental sample of 10 open proposed rule changes, which were
open for at least one year, as of November 7,2007.




SRO RULE FILING PROCESS                                                               MARCH 31, 2008
AUDIT 438
                                                                            Page 13


Table 5. Sample ofTen Proposed Rule Changes Open More than One Year,
         As ofNovember 7,2007


                              Number
                              of Days
Proposed     Commission       Open as     Noticed in
Rule         Received         of          Federal         Awaiting        Action After
Change       Dated            1117/07     Register        Action from     1117/07
AMEX
2006-31      417/2006             579     Yes: 12/20/07    SRO            Approved
                                                                          Second
                                                                          amendment filed
                                                                          on 317/08.
CBOE                                                                      Noticed on
2005-11    1/25/2005       1,016          No               Commission     3/11/08.
CHX
2005-39    12/22/2005        685          No              SRO             Withdrawn
CSE
2003-04    3/27/2003       1,686          No              SRO             Withdrawn
ISE
2006-01    1/5/2006          671          Yes: 1/19/06     Commission     -----

NSCC
2006-04    3/15/2006         602          Yes: 5/8/06      Commission     - .... _...

NYSE
2004-60    10/26/2004      1,107          No              TM              Withdrawn
NYSE
2006-50   6/30/2006          495          No              SRO             -----
NYSEArca
2006-53   9/1/2006           432          No              SRO             Withdrawn
PHLX
2004-63   9/28/2004        1,135          No              SRO             Withdrawn
Total number days open: 8,408
Average days open: 841
Median days open: 678

As of November 7,2007, these 10 proposed rule changes had been open from 432 to
1,686 days and a median of 678 days. Only three of these proposed rule changes had
been Noticed. As of this date:

   The Commission was waiting for SRO action on six proposed rule changes.
      • In these instances, TM management informed us that it had material
         concerns with these proposed rule changes and/or the proposals failed to
         adequately articulate their purpose or include pertinent details.
         Therefore, TM requested and was waiting for additional information from
         the SROs or TM requested the SROs to withdraw these proposed rule
         changes.


SRO RULE FILING PROCESS                                                MARCH 31, 2008
AUDIT 438
                                                                                                  Page 14


     Commission action was required in three instances. According to TM:
       • In one instance, another Federal agency believed that it had jurisdiction
          over the product in question. In order to address the concerns of the other
          agency, the Commission delayed acting upon the proposal.
       • In another instance, while TM recommended approval, the Commission
          had not approved the proposed rule change.
       • In another instance, the proposed rule, if approved, would change the way
          tradBs are processed. This proposal involves several complex issues and
          the Commission received 12 comment letters, 10 of which opposed the
          proposed rule change. Commenters met with Commissioners in 2006 and
          2007 to discuss their comments. TM drafted a memo discussing the issues
          and making recommendations and circulated the memo to the Commissioners
          in April 2007. Since that date, TM staffhave met with Commissioners,
          commenters, and the SRO to flesh out further issues and to gather information
          to address additional questions and comments raised with respect to the
          proposed rule change.

    TM action was required in one instance.
      • TM had not Noticed this proposed rule change because TM believed that
          the proposal was not in the best interest of investors. The SRO withdrew
          this proposal, per TM's request. TM management told us that if the SRO
          had not withdrawn this proposed rule change, the Commission would
          have initiated disapproval proceedings. 13

These 10 proposed rule changes were complex and/or controversial, lending
themselves to a longer review period. In these cases, additional amendments and
frequent communication between the Commission, SROs and third parties occurred.
In at least two instances, the SROs had to obtain approval from their Boards of
Directors before making changes to the proposed rules that TM requested.
Accordingly, some factors that may affect TM's timeliness are not in TM's control.

However, while TM managers generally encourage their staff to follow-up with SRO
staff on open proposed rule changes and recommend that the SROs withdraw certain
proposals, there is no division-wide policy to this effect. Some TM staff suggested
that TM should be firmer in requesting SROs to withdraw pending proposed rule
changes that have been overcome by events or that the Commission refuses to Notice
because they are not in the best interest of investors. TM staff also told us that an
SRO may not timely withdraw a proposed rule change, even after requested by TM,
because the SRO fails to prioritize this action. On other occasions, the SRO refuses
to withdraw a proposed rule change. If the SRO does not withdraw a proposed rule
change, the Commission may institute proceedings to determine whether the
proposed rule change should be disapproved. The disapproval process is lengthy and
complex.

TM also does not routinely reject proposed rule changes that are incomplete,
unclear, or otherwise fail to comply with Rule 19b-4. Instead, TM staff delay


13 The disapproval proceedings process is described on page 7 and in footnote 8 of this report.


SRO RULE FILING PROCESS                                                                  MARCH 31, 2008
AUDIT 438
                                                                                                        Page 15


Noticing or approving such proposed rule changes until an agreement is reached
with the SRO on making appropriate changes. This adversely affects TM's
timeliness in processing proposed rule changes. TM staff told us that it would be
more efficient if TM rejected insufficient proposed rule changes, while continuing to
work with the SROs to improve such proposals "off the clock."

            Recommendation C
            TM should establish a written policy containing:
              • Procedures for following up with SRO staff when TM is waiting for
                  information from the SROs;
              • Criteria for requesting an SRO to withdraw a proposed rule change;
              • Criteria for instituting a disapproval proceeding; and
              • Criteria for rejecting a proposed rule change.

            TM should share this information with the SROs and train its staff to utilize
            this policy.

Our prior OIG audit report also identified timeliness issues regarding proposed rule
changes open for a significant period of time and recommended similar action
(Commission Review of SRO Rules, No. 272, issued July, 14, 1998).

REVIEW OF SRO RULES
From our judgmental sample of 56 finalized SRO rules, we determined whether
TM's official rule files were complete and the related SRTS data was accurate. The
sample included 19(b)(2) and 19(b)(3)(A) rules, which were finalized in 2007, from 14
different SROs (see Appendix B).

Completeness of TM's Official SRO Rule Files
We reviewed 51 ofTM's official SRO rule files that corresponded to our judgmental
sample of 56 rules to determine whether the files were complete. TM could not
locate the remaining five files during the audit but provided them to us after we
issued this report in draft form.

TM did not have a complete list identifying which documents should be contained in
each file, but did have a document that discussed its rule filing close-out procedures
and a written checklist, both of which indicated some, but not all of the documents
that should be included in each official SRO rule file. Based on our review of these
documents and discussions with TM staff, an official SRO rule file should contain
the following:
    • Rule filing from the SRO;
    • SEC Notice and/or order containing a raised SEC seal, which is signed by the
        Secretary's office;
    • TM Close-out sheet;
    • SRTS snapshot report; and
    • Relevant page(s) of the Federal Register. 14

14   TM includes the close-out sheet, SRTS snapshot report and relevant page(s) ofthe Federal Register in its SRO

SRO RULE FILING PROCESS                                                                          MARCH 31, 2008
AUDIT 438
                                                                                                        Page 16


If applicable, the following additional documents should also be included in an
official SRO rule file:
    • Amendments from the SRO;
    • Comment letters;
    • SEC release containing a raised SEC seal and signed by the Secretary's
        office;
    • Information related to partial approvals and extensions; and
    • Substantive e-mails, memoranda or notes, or other information related to the
        rule filing.

Table 6 shows the results of our review of the 51 of 56 official SRO rule files:

         .
T able 6 CompJ eteness 0 f OffilCla
                                 . 1 SRO R ue
                                            1 FI
                                               1 es
Document Reviewed                     Exceptions
SRO Rule Filing                       None.
                                      Six files contained a Notice or Order that did not have an
Signed SEC Notice or                  SEC raised seal. One file did not contain the Notice
Order with raised Seal                Release and Order Release.
Close-out Sheet                       Missing in 31 instances.
Snapshot Report                       Missing in 33 instances.
Federal Register page(s)              Missing in 3 instances.
Amendment(s)                          Missing in 1 of 24 applicable instances.

A TM manager believed that the close-out sheet and SRTS snapshot report were
unnecessary and therefore, were not included in 12 files that we reviewed. Both of
these documents were listed as required items in TM's written documentation.

During the audit, we provided TM management with a list of exceptions that
identified which official rule files were missing and the additional documentation
that was needed for the incomplete files.

          Recommendation D
          TM should ensure that the incomplete files are supplemented with the
          missing documents and work with OS to ensure that all Commission Notices
          and orders contain an SEC raised seal.

          Recommendation E
         TM should establish a complete written list of all documents that should be
         contained in each SRO official rule file. The list should identify which
         documents are required in all instances as well as the documents that should
         be included if applicable (e.g., amendments; comment letters; extensions).
         TM should enforce compliance with this documentation requirement by
         periodically reminding its staff of this requirement and spot-checking the
         files for completeness.

official rule file for reasons of administrative convenience. However, if the Commission were required to produce the
official file for a proposed rule change, it would not include these items.

SRO RULE FILING PROCESS                                                                          MARCH 31, 2008
AUDIT 438
                                                                            Page 17


SRTS Data Accuracy
For our sample of 56 rules, we reviewed the completeness and accuracy of SRTS
data by comparing the SRTS data to source documents. Overall, the SRTS data
pertaining to our sample was 94 percent accurate, as illustrated in Table 7.
Inaccuracies included erroneous data and missing data because it had not been
                      .
timely entered into SRTS.

Table 7. SRTS Data Accuracy

Information Reviewed                            Accuracy       Yes    No    N/A       Total
                                                  Rate
Digital Signature Verification noted in           73%          41     15      0        56
SRTS
SRO Contact Information in SRTS                    100%        56      0      0        56
Accelerated Approval Properly Indicated in         85%          11     2     43        56
SRTS
Notice Release:
   Correct SEC Release Number                      100%        28      0     28        56
   Correct SEC Release Date                        96%         27      1     28        56
   Correct Federal Register Citation               96%         27      1     28        56
   Correct Federal Re{!ister Date                  93%         26      2     28        56
Final Action Release:
   Correct SEC Release Number                      100%        56      0     0         56
   Correct SEC Release Date                        95%         53      3     0         56
   Correct Federal Re{!ister Citation              96%         54      2     0         56
   Correct Federal Ref!ister Date                  96%         54      2     0         56
Overall SRTS Data Accuracy Rate                    94%

During the audit, we provided TM management with a list of exceptions, identifying
the incorrect SRTS data. Specifically, the digital signature was noted in SRTS as
being verified in only 73 percent (41 of 56) of the cases sampled. A digital signature
is important because it provides assurance that the information the SRO sends to
the Commission has not been altered. TM staff did not consistently note in SRTS
whether the digital signature was valid.

       Recommendation F
       For each SRO submission received by SRTS, TM should ensure that the
       SRO's digital signature is valid and note this fact in SRTS.

       Recommendation G
       TM should correct all of the data in SRTS that the OIG identified as incorrect
       and periodically compare samples of SRTS data to source documents to
       ensure that the data is accurate.




SRO RULE FILING PROCESS                                               MARCH 31, 2008
AUDIT 438
                                                                                            Page 18




SRO RULES CONTAINING COMMENT LETTERS
Review of Rules Containing Comment Letters
As shown in Table 8, we reviewed a sample of 20 finalized rules where comment
letters were received. Between one and five comment letters were received for each
rule. We compared the comment letters in TM's official rule files to the comment
letters posted on the Commission's website at www.sec.gov and to those listed in
SRTS.15

 Table 8. Rules Containing Comment Letters, as of December 17, 2007
                         Comparison of
                         Comments in
                         TM's Official
                         Rule File,
                         www.sec.gov,
 Rule                    and SRTS                Difference
 AMEX 2006-72            Same                    None
 AMEX 2006-78            Same                    None
 AMEX 2006-98            Same                    None
 NASDAQ 2006-6           Different               Comment letter not listed in SRTS.
 NASDAQ 2006-11          Same                    None
 NYSE 2006-30            Different               Comment letter not listed in SRTS.
                                                 Comment letter not listed in SRTS.
                         Different
 NYSE 2006-69                                    Comment letters field not checked in SRTS.
                                                 Comment letter not listed in SRTS.
                         Different
 NYSE 2006-106                                   Comment letters field not checked in SRTS.
 CBOE 2006-70            Same                    None
                                                 SRTS indicates that comment letters were
                         Unable to
                                                 received but does not provide information
                         Determine
 CBOE 2006-98                                    about the comment letters.
 CHX 2006-5              Same                    None
                                                 SRTS indicates that comment letters were
                         Unable to
                                                 received but does not display information
                         Determine
 DTC 2006-8                                      about the comment letters.
 NSX 2006-3              Same                    None
 NSX 2006-8              Same                    None
 NYSEArca 2006-
                         Different
 13                                              Comment letter not in TM official rule file.
 NYSEArca 2006-
                         Same
 31                                              None
 PHLX 2006-52            Different               Comment letter not in TM official rule file.
 PHLX 2006-53            Different               Comment letter not in TM official rule file.
 BSE 2006-10             Different               Comment letter not in TM official rule file.
 BSE 2006-30             Same                    None

In only 10 of 20 instances, the comment letters in each of the three sources matched.
In eight instances, comment letters were missing from one or more source. In two

15 SRTS identifies the commenter and the date of a comment letter, but does contain a copy of the comment
letter.

SRO RULE FILING PROCESS                                                               MARCH 31, 2008
AUDIT 438
                                                                              Page 19


instances, the comment letters in TM's files matched those on the Commission's
website but we could not determine whether SRTS listed the comment letters. This
is because the underlying rules were filed under Section 19(b)(3)(A) of the Exchange
Act. Because the Commission does not receive many comment letters for 19(b)(3)(A)
filings, SRTS was not designed to capture information about comments associated
with these proposed rule changes. SRTS was designed in this manner to avoid
inadvertent data entry errors. (See SRTS Enhancements, p.21).

           Recommendation H
           TM should work with as to ensure that each comment letter associated with
           an SRO rule is contained in TM's official file, available on the Commission's
           website at www.sec.gov and listed in SRTS.

Comment Letter Logging Process
as logs all comment letters received into a Microsoft Access database. This
database interfaces with SRTS and automatically populates SRTS with information
about any comment letters received. If a comment letter is received, a checkmark
automatically appears in SRTS next to the "comment letters" field and information
about the comment letters is displayed in the Notice tab in SRTS.

As shown in Table 8, in two instances, the "Comment Letters" field did not contain a
checkmark and SRTS did not contain any information about the comment letters.
OS's comment letter log accurately listed the comment letters.

as and TM management told us that in one instance, a technical problem resulted
in the failure of a comment letter to upload into SRTS. In the other instance, the
comment letter was received after the proposed rule change was finalized. When
this happens, SRTS considers the filing to be "closed" and does not extract comment
letter information from the as comment letter log after a filing has been closed.

           Recommendation I
           TM should coordinate with OIT and as to ensure that, where practicable, all
           comment letters in OS's comment letter log accurately and completely upload
           into SRTS.16

After logging the comment letters into its database, as then forwards an electronic
and hard copy version of each comment letter to the appropriate TM staff. The only
difference between the hard copy and electronic version is that as writes the
sequence number on the hard copy version. as stated that it could include the
sequence number in the electronic version, if needed.

It is not necessary for as to forward a hard copy of the comment letter to TM
because, if needed, TM could print out the comment letter on its own. Additionally,
TM staff often receives a copy of the comment letter directly from the commenter.
Sending only an electronic version of a comment letter is more efficient and would


16   See also "SRTS Enhancements" section on page 21.

SRO RULE FILING PROCESS                                                  MARCH 31, 2008
AUDIT 438
                                                                            Page 20


save paper resources.

OS management agreed with this recommendation but stated that sometimes TM
staff specifically request a hard copy of the comment letters.

           Recommendation J
           OS should discontinue sending a hard copy of the comment letters to TM,
           unless specifically requested by TM staff. OS should only send an electronic
           version of the comment letters to TM and ensure that the sequence number is
           included with the transmittal of each electronic comment letter.

POSTING PROPOSED RULE CHANGES ON THE INTERNET
Rule 19b-4 requires SROs to post proposed rule changes and amendments to their
website within two business days after filing the proposal or amendment with the
Commission. 17

We printed a list of all open proposed rule changes as of January 31,2008. This list
identified 14 proposed rule changes from 6 SROs that were received by the
Commission during the two-week period starting on January 14, 2008, and ending
on January 25, 2008.

As of January 31, 2008, 12 of the 14 proposals were listed on the SROs' websites.
Two proposals, both from the same SRO, were not on the SRO's website.

We notified TM management of these exceptions. TM management contacted the
SRO and the SRO subsequently posted the proposed rule changes to its website.

           Recommendation K
           TM should issue a reminder to the SROs of the requirement to post proposed
           rule changes and amendments to their websites within two business days of
           filing them with the Commission. TM should periodically check the SROs'
           websites to determine if the SROs comply with this requirement in a timely
           manner.

SRTS
SRTS Access to Commission Staff and Contractors
During the audit, 131 current and former Commission employees and contractors
were initially listed on OIT's SRTS access report as having varying levels of access
to the SRTS system. Access levels ranged from read-only to full access, which
enables users to make changes to SRTS data.
We found that some of the users listed on the access report should not have had
access to SRTS and we questioned the level of access granted to other users. After

17   17 C.F.R. § 240.19b-4(I)

SRO RULE FILING PROCESS                                                MARCH 31, 2008
AUDIT 438
                                                                                   Page 21


bringing this to TM's attention, TM requested and OIT subsequently deleted two
users' access to SRTS and made ten user accounts inactive. TM management
informed us that many of its 170 staff require some level of access to SRTS and that
OIT contractors sometimes require full access to SRTS inorder to assist staff with
technical problems.
In order to comply with its own operating procedure, OIT stated that, on a quarterly
basis, it would begin sending a SRTS access report to the SRTS system owner in TM,
for review;18 TM management informed us that they would review the access report
each quarter and request OIT to change or update users' access to SRTS, as
necessary.

           Recommendation L
           Each quarter, OIT should send a SRTS access report to TM and work with
           TM to ensure that each user's access and level of access to SRTS is
           appropriate. OIT and TM should also coordinate to ensure that Commission
           employees' and contractors' access to SRTS is removed immediately upon
           their permanent departure from the Commission.
OS Access
While the OS staff compiles the comment letter log and has SRTS access, the
Secretary and Deputy Secretary stated that it would be useful if they had read-only
access to SRTS. According to these OS officials, SRTS access would enable them to
more easily ensure that the comment letters listed in SRTS matched the comment
letters in OS's comment log. It would also enable these staff to quickly determine
who in TM has been assigned to a particular proposed rule change, which would
help them to respond more quickly to related questions from Commission staff and
people outside of the Commission.
TM staff stated that the OS Secretary and Deputy Secretary do not require SRTS
access and previously denied their requests for access.

           Recommendation M
           TM should reconsider granting SRTS access to the Commission's Secretary
           and Deputy Secretary.
SRTS Enhancements
During the audit we identified or TM staff brought to our attention the following
enhancements to improve SRTS, as listed in Recommendation N below.

           Recommendation N
           TM should implement the following SRTS enhancements:
           1) We identified two 19(b)(3)(A) rules where comment letters were received
              according to SRTS, but SRTS was unable to display a list of the comment
              letters. I9 SRTS should identify comment letters received for 19(b)(3)(A)

18   OIT Operating Procedure OP 24-04.06.01.04 (01.0) May 30, 2006.
19   See report section "SRO Rules Containing Comment Letters", pages 18-20.

SRO RULE FILING PROCESS                                                        MARCH 31, 2008
AUDIT 438
                                                                            Page 22


            proposed rule changes.
         2) Sometimes it takes more than one minute to advance from one SRTS
            screen to the next and several minutes to gain initial access to SRTS. The
            speed of gaining access to and navigating within SRTS should be
            improved.
         3) Currently, a 19(b)(3)(A) proposed rule change is automatically removed
            from a user's inbox as soon as the rule is published for comment in the
            Federal Register. A 19(b)(3)(A) proposed rule change should remain in a
            SRTS user's inbox for the duration of the 60-day abrogation period, as a
            reminder to TM staff.
         4) Once the Notice for a 19(b)(3)(A) proposed rule change has been issued,
            SRTS considers the filing to be "closed" and no longer extracts comment
            letter information from the OS comment letter log. If practicable, SRTS
            should be enhanced to ensure that it uploads all comment letters from the
            OS comment letter log, regardless of when the comment letters were
            received.

FISMA
The Federal Information Security Management Act (FISMA)20 requires Federal
agencies to develop agency-wide programs to provide security for their information
systems. Agencies are required to categorize their information systems as low-,
medium- or high-impact and commensurate security reviews are required based on
the assigned risk level.

We found that the SRTS system was not included in the Commission's FISMA
inventory and therefore, had not been subject to any FISMA security reviews.

In response to our finding, OIT characterized SRTS as a medium-impact system,
conducted a commensurate risk analysis and coordinated with TM to complete
additional FISMA requirements.

As a result of TM and OIT's action on this matter during the audit, we are not
making a related recommendation.

DOCUMENT IMAGING OF SRO OFFICIAL RULE FILES
TM worked with OIT and an outside contractor to image the contents of many of its
2002 official SRO rule files. Some earlier rule files, going as far back as 1985 were
imaged by a different contractor. While the 2002 imaged files are useful to TM staff,
many of the older files were imaged in a manner that made them very difficult to
review, search or use in an effective manner because the contractor imaged each
page of information as a separate document.

TM staff said that imaging is useful because if the files are imaged correctly, they
could quickly search them, if needed. TM also began imaging its rule files for

20 44 U.S.C. § 3541   et seq.

SRO RULE FILING PROCESS                                                MARCH 31, 2008
AUDIT 438
                                                                         Page 23


disaster recovery purposes.

TM has not established a timeline for imaging the remaining rule files; nor has TM
decided how far back to image the rule files. TM management told us this is due to
staffing and budgetary reasons.

       Recommendation 0
       TM should determine which additional SRO official rule files should be
       imaged and coordinate with OIT to establish a timeline for imaging
       additional rule files. TM should also work with OIT to ensure that imaging is
       conducted in a manner that makes it easy for TM staff to search and review
       the files.

DOCUMENT RETENTION
TM told us that it retains its hard-copy official SRO rule files on-site for
approximately five years and stores older files at an off-site records management
center. TM began receiving SRO proposed rule changes in 1976, after the Exchange
Act was amended. TM told us that it has retained all of its documentation
pertaining to SRO proposed rule changes.

The Commission's document retention policy for SRO rule documentation was
implemented in 1982 and has never been updated. The policy states that the
Commission should destroy SRO rule records six years after the SRO is no longer
registered. The policy does not address retention requirements for rule
documentation that is stored electronically, nor does it contain provisions for
destroying additional rule filings.

OS informed us that Commission offices need instruction on proper maintenance of
SEC records under National Archives and Records Administration guidelines and
SEC document retention schedules. In 2007, as hired an archivist to develop a
Commission-wide document retention program and provide guidance to individual
offices on document retention. This program is expected to take 3 to 5 years to
implement.

During the audit, TM began coordinating with the Commission's archivist to update
the records retention policy for SRO rule documentation and ensure compliance with
this policy.

      Recommendation P
      The as archivist, in consultation with TM, should update the Commission's
      document retention policy pertaining to SRO rule filing information in both
      paper and electronic form. TM should develop a procedure to ensure
      compliance with the updated retention policy.




SRO RULE FILING PROCESS                                             MARCH 31, 2008
AUDIT 438
                                                                               Page 24




COMMISSION WEBSITE
The www.sec.gov website lists the Noticed and finalized rules from each SRO. While
overall we found the website useful and well-organized, it was sometimes difficult to
find a rule filing, especially if it was Noticed in one year and finalized in a different
year. For example, if a proposed rule change was Noticed in 2004 (e.g., AMEX 2004-
1) but not finalized until 2007, it would be listed under rules finalized in 2007. If the
rule filings were listed in chronological order by rule number, they could be easier to
locate.

The OS web unit is responsible for the presentation of the SRO rule information on
the Commission's website. In response to this issue, OS management informed us
that it is taking steps to reorganize SRO notices of proposed rule changes and
Commission orders approving SRO rules so that each proposed rule change that is
noticed will be listed in chronological order by rule number (with any associated
approval order), in addition to being listed chronologically by date of issuance.

       Recommendation Q
       The OS web unit, in consultation with TM, should list the SRO rule filings in
       chronological order by rule number or undertake other appropriate measures
       to ensure that all SRO proposed rule changes are easy to locate.

SRO FILE ROOM
TM stores its official SRO rule files in individual folders in a file room. We found it
difficult to locate several files because the labels on the shelves were often incorrect.

       Recommendation R
       TM should ensure that the labels on the shelves inside its file room correctly
       identify the SRO rule files contained on each shelf.

SROSURVEY
We surveyed SRO officials who file proposed rule changes with the Commission to
obtain their views on the Commission's processing of SRO proposed rule changes.
Overall, the staff we interviewed were pleased with the responsiveness of TM staff,
EFFS and the Commission's website's organization and listing of SRO proposed rule
changes.

While SRO staff believed that the Commission had improved its processing
turnaround times over the past few years, they believed that timeliness should be
improved further. SRO staff said that the Commission delayed Noticing proposed
rule changes for policy or political reasons unrelated to whether the proposed rule
changes violated the Exchange Act. SRO staff believed that TM should Notice
proposed rule changes more quickly.


SRO RULE FILING PROCESS                                                  MARCH 31, 2008
AUDIT 438
                                                                                 Page 25


SRO staff also wanted more guidance from TM regarding which types of proposed
rule changes qualify for accelerated approval, especially for copycat proposed rule
changes. 21 Some SRO staff wanted a better idea of how TM develops policies that
affect SRO proposed rule changes and the filing process. An SRO employee stated
that the duplicative information required in Commission Form 19b-4 should be
eliminated.

Some SRO personnel further stated that TM staff are inconsistent in rejecting
proposed rule changes, based on non-technical issues such as punctuation errors, or
incorrectly numbered pages. They claimed that some TM staff, such as new
attorneys, are too particular about non-material issues. SRO staff also informed us
that these inconsistencies and particularities resulted in unnecessary delays to the
Commission's Notice and approval of proposed rule changes.

TM management stated they maintain a consistent dialogue with the SROs.

        Recommendation S
        TM should take into account all of the suggestions described above regarding
        ways to improve their review process, and in particular, should:

           •   Articulate what criteria qualifies for accelerated approval and provide
               this information to the SROs; and

           •   Provide guidance to its staff on when it is appropriate to request an
               amendment to a proposed rule change for non-substantive issues (e.g.,
               formatting issues, spelling and grammar errors, page number errors).




21 A proposed rule change is considered a copycat filing when the proposed rule change
submitted by one SRO is the exact proposal that was preViously submitted by another SRO and
approved by the Commission.

SRO RULE FILING PROCESS                                                     MARCH 31, 2008
AUDIT 438
                                                                            Page 26




    Discussion of Management's Comments
TM, os and OIT concurred with all of the report's recommendations. TM provided a
formal written response, which is included as Appendix E.

In its written response, TM noted: "The report also showed that our timely approval
of noticed rule filings was substantially higher (21 of 28 versus 8 of 15) when the
accelerated rule filings in the sample were included." From our judgmental sample
of 56 rules that we reviewed, only 15 rules were subject to the 35-day statutory
approval timeframe. Of these 15 rules, 53 percent (8 of 15) were not processed
within the 35-day statutory timeframe.

There were 13 rules from our sample that could have been subject to the 35-day
statutory timeframe, but instead, TM honored the SROs' requests to process these
rules in an accelerated manner. As a result, these 13 rules were Noticed and
approved using the same Commission order. Had these rules been approved using
both a Notice order and Approval order, they would have been subject to the 35-day
statutory approval timeframe for approval. Because they were not subject to the 35-
day statutory approval timeframe, it would be inaccurate to conclude that 21 of 28
rules were approved within the 35-day statutory timeframe.




SRO RULE FILING PROCESS                                            MARCH 31, 2008
AUDIT 438
                                                           Page2?


                                                   Appendix A


                         Abbreviations
AMEX     American Stock Exchange
BSE      Boston Stock Exchange
CBOE     Chicago Board Options Exchange
CHX      Chicago Stock Exchange
DTC      Depository Trust Company
EFFS     Electronic Form 19b-4 Filing System
FICC     Fixed Income Clearing Corporation
FINRA    Financial Industry Regulatory Authority
FISMA    Federal Information Security Management Act
ISE      International Stock Exchange
NSX      National Stock Exchange
NYSE     New York Stock Exchange
NYSEArca NYSE Area, Inc.
OCC      Options Clearing Corporation
OIG      Office of Inspector General
OIT      Office of Information Technology
OS       Office of the Secretary
PHLX     Philadelphia Stock Exchange
SEC      Securities and Exchange Commission
SRO      Self-Regulatory Organization
SRTS     SRO Rule Tracking System
TM       Division of Trading and Markets




SRO RULE FlUNG PROCESS                                 MARCH 31, 2008
AUDIT 438
                                                                 Page 28


                                                      Appendix B


                          Rules Selected for Review

                                               Amendments
                                               Received by the
       Rule                     Type of Rule   Commission
       AMEX 2007-08             19(b)12)       No
       AMEX 2007-11             19(b)(3)(A)    Yes
       AMEX 2007-35             19 (2)         Yes
       AMEX 2007-67             19 (3)(A)      No
       BSE 2007-33              19 )(2)        Yes
       BSE 2007-36              19 )(3)(A)     No
       BSE 2007-43              19(b)(3)(A)    Yes
       BSE 2007-45              19(b)(2)       No
       CBOE 2006-110            19(b)(2)       Yes
       CBOE 2007-121            19(b)(2)       No
       CBOE 2007-14             19(b)(3) (A)   Yes
       CBOE 2007-66             19(b)(3)(A)    No
       CHX 2006-42              19(b)(2)       Yes
       CHX 2007-08              19(b)(2)       No
       CHX 2007-20              19(b)(3)(A)    No
       CHX 2007-25              19(J)(3)(A)    Yes
       DTC 2006-07              19( J)(2       Yes
       DTC 2006-17              19( J)(3l(A)   Yes
       DTC 2007-04              19(b)(2)       No
       DTC 2007-08              19(b)(3)(A)    No
       FlCC 2006-16             19(b)(2        Yes
       FlCC 2007-2              19(b)(3)(A)    No
       FlCC 2007-3              19(b)(2)       No
       FlCC 2007-7              19(b)(3)(A)    No
       FlNRA 2007-1             19(b)(2)       No
       FlNRA 2007-15            19(b)(3) (A)   No
       FlNRA 2007-2             19(b)(3)(A)    No
       FlNRA 2007-7             19(b)(2)       No
       ISE 2006-62              19(b)(2)       Yes
       ISE 2006-78              19(b)(2)       No
       ISE 2007-62              19(b)(3) (A)   No
       ISE 2007-72              19     3)(A)   Yes
       Nasdaq 2007-27           19     2       Yes
       Nasdaq 2007-30           19     2       No
       Nasdaq 2007-82           19     3)(A)   Yes
       Nasdaq 2007-83           19(b)(3)(A)    No
       NSX 2007-05              19(b)(2)       No
       NSX 2007-07              19(b) (2)      Yes
       NSX 2007-10              19(b)(3) (A)   No
       NSX 2007-2               19(b)(3)(A)    Yes
       NYSE 2007-11             19(b)(3)(A)    No
       NYSE 2007-29             19(b)(3) (A)   Yes

SRO RULE FILING PROCESS                                  MARCH 31, 2008
AUDIT 438
                                                           Page 29


                                               AppendixB

                                         Amendments
                                         Received by the
       Rule               Type of Rule   Commission
       NYSE 2007-37       19(b)(2)       Yes
       NYSE 2007-74       19(b)(2)       No
       NYSEArca 2006-38   19(b)(2)       No
       NYSEArca 2006-62   19(b)(2)       Yes
       NYSEArca 2007-07   19(b)(3) (A)   Yes
       NYSEArca 2007-67   19(b)(3)(A)    No
       OCC 2007-04        19(b)(2)       No
       OCC 2007-06        19(b)(2)       Yes
       OCC 2007-10        19(b)(3)(A)    No
       OCC 2007-5         19(b)(3)(A)    No
       PHLX 2007-28       19(b)(3)(A)    No
       PHLX 2007-37       19(b)(2)       Yes
       PHLX 2007-52       19(b)(2)       No
       PHLX 2007-53       19(b)(3) (A)   Yes




SRO RULE FILING PROCESS                            MARCH 31, 2008
AUDIT 438
                                                                                                                                                                               Page 30


                                                                                                                                                                 Appendix C
                                                                                                                                                             OM8 APPROVAL

                                                              Commission Form 19b-4                                                                     OM8 Number.         3235-0045
                                                                                                                                                        Expires:
                                                                                                                                                        Estimated average burden
                                                                                                                                                        hours perresponse......... 34



Page 1 of   0                                  SECURITIES AND EXCHANGE COMMISSION                                                                File No. SR -   [:==J . c=J
                                                      WASHINGTON, D.C. 20549
                                                            Form 19b·4                                                                           Amendment No.     0
 Proposed Rule Change by           I                                               Select SRO

 Pursuant to Rule 19b·4 under the Securities Exchange Act of 1934


 Initial           Amendment                   Withdrawal             Section 19(b)(2)                            Section 19(b)(3)(A)                      Section 19(b)(3)(B)
0                  0                           0                      0                                           0                                        0
                                                                                                                                     Rule

 Pilot      Extension of Time Period                                                                      o 19b-4(f)(1) o 19b-4(f)(4)
0           for Commission Action
                                                Date Expires
                                                                                                          o 19b-4(f)(2) o 19b-4(f)(5)
            0                                   I                                                         o 19b-4(f)(3) o 19b-4(f)(6)
 Exhibit 2 Sent As Paper Document               Exhibit 3 Sent As Paper Document
 o                                              o
 Description
 Provide a brief description of the proposed rule change (limit 250 characters).




 Contact Information
 Provide the name, telephone number and e-mail address of the person on the staff of the self-regulatory organization
 prepared to respond to questions and comments on the proposed rule change.

 First Name     IF==========!.--------"===========;
                               I last Name I
 TiUe
 E-mail
                1F=~=======~~===~========~=i
                .
 Telephone      1'-- _ Fax 1'-- _
  Signature
  Pursuant to the requirements of the Securities Exchange Act of 1934,


  has duly caused this filing to be signed on its behalf by the undersigned thereunto duly authorized.

  Date
  By
                             (Name)


                                                                                                                (TItle)
 NOTE: Clicking the button at right will digitally sign and lock
 this form. A digital signature Is as legally binding as a physical       .~ .~-       -jqfQ~~~r)~<- ~'.;lG~i; ~ ·1~~,j!.~'-":   >   ~,: I h   --~-j
 signature, end once signed, this form cannot be changed.
                                                                          .   ~~   ~                        ~     ,~,                             "'-




                SRO RULE FILING PROCESS                                                                                                                               MARCH 31, 2008
                AUDIT 438
                                                                                                                                                         Page 31


                                                                                                                                      Appendix C

                                                    Commission Form 19b-4

                                           SECURITIES AND EXCHANGE COMMISSION
                                                    WASHINGTON, D.C. 20549




--_.
                           For complete Form 19b-4 instructions please refer to the SRTS Online Filing website.

Form 19b·4 Information
                                                       The self.regulatory organization must provide all required Information, presented In a clear and
                                                       comprehensible maMer, to enable the public to provide meaningful comment on the proposal and
                                                       for the Commission to determine whether the proposal Is consistent with the Act and applicable
                                                       rules and reguletlons under the Act.




---
exhibit 1 - Notice of Proposed Rule Change             The Notice section of this Form 19b.4 must comply with the guidelines for pUblication In the
                                                       Fedenll Reg~ter as weltes any A1qulnlmenll for electrontc filing al publilhed by the Commission (It
                                                       eppticable). The OffIce of the Fedenll Register (OFR) offers guidance on Fedenll Register
                                                       publication requirements In \he Fedenll Regliler Document Drafting Handbooll, October 1998
                                                       Revision. For example, alllllferenees to \he federel securitlel laws must Include the corresponding
                                                       elte 10 the United Steles Code In a 100tnote. All relenlOcee 10 SEC rules mUll Include Ihe
                                                       corresponding elle to the Code 01 Federal Regulallons In a footnote. All references to Securities
                                                       Exchange Act Reruses musllnclude the release number, IlIleale date, Fedenll Reglsler elte,
                                                       Federal Reglsler date, and corresponding file number (e.g., SR-lSRO)·)(X·xx). A material fellure 10
                                                       comply wllh these guldeltnes will result In lhe proposed rule change being deemed not property
                                                       filed. S" also Rule 0-3 under the Act (17 CFR 240.0-3).




---
exhibit 2 • Notices, Written Comments,                 Copies of notices. wrtlten comments, transcrtpts, other communications. 11 such documents cannol
Transcripts, Other Communications                      be filed electronically in llC<:ordance with Instruellon F, Ihey shall be filed In accordance with
                                                       Instructlon G.



ElI!IIblt Senl As Paper Document
0



---
exhibit 3   -   Form, Report, or Questionnaire




ElihIbIt Senl As Paper Document.
0
                                                       Copies of any form. report. or questionnaire lItal the selt-nlllulalory organlzatlon proposes to use to
                                                       help Implemenl or operale the proposed rule change, or thaI Is refem!d to by the proposed rule
                                                       change.




---
exhibit 4 • Marked Copies                              The fun lext shall be marked, In any convenient manner, to Indicele additions to and deletions
                                                       from the immediately preceding filing. The purpose of ExhIbit 4 Is to permit the staff to identify
                                                       immediately the changes made from \he text of the rule with which It has b"n working.




---
exhibit 5 - Proposed Rule Text                         The setf..nlgutetory CKganlzation may choose 10 atIach as EJchlblt 5 proposed changes to rule text In
                                                       place of provtding It In Item I and whlch may otherwise be more easily readable If provided
                                                       separately from Form 191>-4. Exhibit 5 shall be considered part of \he proposed rule change.




---
 Partial Amendment                                      If the self-regulatory organization Is amending only part of the text of a lengthy proposed rule
                                                        change, It may, with lhe COmmission's permission. file only those po!tlonl of \he lext of the
                                                        proposed rule change In wllich changes are being made If the filing 0& partial amendmenl) Is
                                                        clearly understandable on lis face. Such partlal amendment shall be clearly Idenllfied and marked
                                                        10 show delellons and addllions.




                 SRO RULE FILING PROCESS                                                                                                         MARCH 31, 2008
                 AUDIT 438
                                                                          Page 32


                                                                AppendixD


                        Sampling Methodology

Rules Finalized in 2007
We selected a judgmental sample of 56 SRO rules finalized in 2007. In selecting this
sample, we selected rules from 14 different SROs, ensuring that rules with and
without amendments were selected as well as rules filed pursuant to sections
19(b)(2) and 19(b)(3)(A) of the Exchange Act. These 14 SROs filed several proposed
rule changes with the Commission. We did not select rules from SROs that filed a
small number of rules with the Commission in 2007, nor did we select rules from
SROs that were not very prominent. We believed that selecting 4.9 percent (56 of
1,143) of the rules processed in 2007 was sufficient.

In each instance, we compared our sample data to source documents to determine
whether TM's official SRO rule files were complete and information was accurately
captured in SRTS at www.sec.gov

Rules Finalized in 2006 That Contained Comment Letters
We selected a judgmental sample of 20 rules finalized in 2006 that contained
comment letters. In selecting this sample, we chose 10 prominent SROs that had
filed many proposed rule changes with the Commission. While there was no
efficient way to determine how many of the rules finalized in 2006 contained
comment letters, TM staff estimated that only about five to ten percent of SRO rules
contain comment letters. Based on this, 51 to 101 of the 1,014 rules finalized in
2006 contained comment letters. As a result, we believe that selecting 20 rules (20
to 39 percent) was sufficient.

In each instance we determined whether the comment letters were in TM's official
rule file at www.sec.gov and listed in SRTS.

Rules Open for More Than One Year, as of November 7, 2007
We selected 10 rules that were open for more than one year, as of November 7,2007.
As of this date, according to SRTS data there were 257 open proposed rule changes,
47 of which had been open for at least one year. We believe that selecting 21 percent
(10 of 47) of the proposed rule changes was sufficient.

In each instance we determined why the proposed rule changes were still open and
the Commission's action to finalize these rules.

Sample Data Selected on a Judgmental Basis
Our sample data was selected on a judgmental basis, as opposed to using statistical
sampling methods. We believe that the results of our sample data are generally
representative of the SRO rule filing process.




SRO RULE FILING PROCESS                                              MARCH 31, 2008
AUDIT 438
                                                                                     Page 33


                                                                                 Appendix E

                        Management's Comments
                                      MEMORANDUM


  TO:            H. David Kotz, Inspector General
                 Office of Inspector Gene~L~

  FROM:          Erik Sirri, Director    p"""""li
                 Division of Trading and Markets

  RE:            Draft Audit Report Dated March 10, 2008

  DATE:          March 24, 2008


  On behalf ofthe Division: of Trading and Markets ("TM" or "Division"), thank you for·
  the opportunity to assist the Office of Inspector General in its examination ofthe Self-
  Regulatory Organizations ("SRO") rule filing process. The Division recognizes the
  inherent value in taking a critical look at the SRO rule filing process, with the hope of
  addressing any deficiencies in a timely and efficient manner. With that in mind, we have
  reviewed the Draft Audit Report, and provide the following comments.

  I. Fonnal Concurrence or Non-Concurrence with Recommendations

  The Division concurs with all of the Recommendations of the Draft Audit Report.

  We offer one observation with regard to recommended changes to the SRTS system as
  detailed in Recommendation N. The SRTS was developed by OIT at the request of the
  Division. Thus, rather than directly making the 4 changes as suggested in the report, we .
  would like to first consult with OIT to see ifthese changes. would be feasible and cost
  effective. Provided they are, we would be happy to see these changes made by the OIT
  staff.


  n. Additional Comment
  We feel it is important for an interested reader not to rely solely on the Executive
  Sumniary of the audit report in coming to his or her own conclusions about the SRO rule
  filing process as the body of the report contains additional details that place the report's
  findings in context. For example, paragraph three of the Executive Summary speaks of
  the Commission's need for improvement in processing proposed rule changes within the
  prescribed statutory timeframe. However, the audit report found that, in many instances,
  the reasons for delay in approving proposed rule changes are beyond the Division's
  control (see pages 12 and 13 of the draft report). The report also showed that our timely
  approval of noticed rule filings was substantially higher (21 of 28 versus 8 of 15) when
  the accelerated rule filings in the Sainple were included (page 9).

SRO RULE FILING PROCESS                                                         MARCH 31, 2008
AUDIT 438
                                                                             Page 34


                                                                     AppendixF

                         List of Recommendations

Recommendation A:
TM should establish a division-wide goal for issuing a Notice release for proposed
rule changes within a certain period of time (e.g., generally 30 days from receipt).
TM should track its progress in meeting this goal.

Recommendation B:
TM should establish a policy to ensure that it meets the statutory timeframe for
finalizing proposed rule changes that have been Noticed in the Federal Register.
TM should track its progress in adhering to this policy.

Recommendation C:
TM should establish a written policy containing:
      • Procedures for following up with SRO staff when TM is waiting for
        information from the SROs;
      • Criteria for requesting an SRO to withdraw a proposed rule change;
      • Criteria for instituting a disapproval proceeding; and
      • Criteria for rejecting a proposed rule change.
TM should share this information with the SROs and train its staff to utilize this
policy.

Recommendation D:
TM should ensure that the incomplete files are supplemented with the missing
documents and work with OS to ensure that all Commission Notices and orders
contain an SEC raised seal.

Recommendation E:
TM should establish a complete written list of all documents that should be
contained in each SRO official rule file. The list should identify which documents
are required in all instances as well as the documents that should be included if
applicable (e.g., amendments; comment letters; extensions). TM should enforce
compliance with this documentation requirement by periodically reminding its staff
of this requirement and spot-checking the files for completeness.

Recommendation F:
For each SRO submission received by SRTS, TM should ensure that the SRO's
digital signature is valid and note this fact in SRTS.




SRO RULE FILING PROCESS                                                MARCH 31, 2008
AUDIT 438
                                                                           Page 35

                                                                    Appendix F

Recommendation G:
TM should correct all of the data in SRTS that the OIG identified as incorrect and
periodically compare samples of SRTS data to source documents to ensure that the
data is accurate.

Recommendation H:
TM should work with as to ensure that each comment letter associated with an
SRO rule is contained in TM's official file, available on the Commission's website at
www.sec.gov and listed in SRTS.

Recommendation I:
TM should coordinate with OIT and as to ensure that, where practicable, all
comment letters in as' comment letter log accurately and completely upload into
SRTS.

Recommendation J:
as should discontinue sending a hard copy of the comment letters to TM, unless
specifically requested by TM staff. as should only send an electronic version of the
comment letters to TM and ensure that the sequence number is included with the
transmittal of each electronic comment letter.

Recommendation K:
TM should issue a reminder to the SROs of the requirement to post proposed rule
changes and amendments to their websites within two business days of filing them
with the Commission. TM should periodically check the SROs' websites to
determine if the SROs comply with this requirement in a timely manner.

Recommendation L:
Each quarter, OIT should send a SRTS access report to TM and work with TM to
ensure that each user's access and level of access to SRTS is appropriate. OIT and
TM should also coordinate to ensure that Commission employees' and contractors'
access to SRTS is removed immediately upon their permanent departure from the
Commission.

Recommendation M:
TM should reconsider granting SRTS access to the Commission's Secretary and
Deputy Secretary.




SRO RULE FILING PROCESS                                               MARCH 31, 2008
AUDIT 438
                                                                             Page 36

                                                                     Appendix F

Recommendation N:
TM should implement the following SRTS enhancements:
   1) We identified two 19(b)(3)(A) rules where comment letters were received
      according to SRTS, but SRTS was unable to display a list of the comment
      letters. SRTS should identify comment letters received for 19(b)(3)(A)
      proposed rule changes.
   2) Sometimes it takes more than one minute to advance from one SRTS screen
      to the next and several minutes to gain initial access to SRTS. The speed of
      gaining access to and navigating within SRTS should be improved.
   3) Currently, a 19(b)(3)(A) proposed rule change is automatically removed from
      a user's inbox as soon as the rule is published for comment in the Federal
      Register. A 19(b)(3)(A) proposed rule change should remain in a SRTS user's
      inbox for the duration of the 60-day abrogation period, as a reminder to TM
      staff.
   4) Once the Notice for a 19(b)(3)(A) proposed rule change has been issued, SRTS
      considers the filing to be "closed" and no longer extracts comment letter
      information from the OS comment letter log. Ifpracticable, SRTS should be
      enhanced to ensure that it uploads all comment letters from the OS comment
      letter log, regardless of when the comment letters were received.

Recommendation 0:
TM should determine which additional SRO official rule files should be imaged and
coordinate with OIT to establish a timeline for imaging additional rule files. TM
should also work with OIT to ensure t~at imaging is conducted in a manner that
makes it easy for TM staff to search and review the files.

Recommendation P:
The OS archivist, in consultation with TM, should update the Commission's
document retention policy pertaining to SRO rule filing information in both paper
and electronic form. TM should develop a procedure to ensure compliance with the
updated retention policy.

Recommendation Q:
The OS web unit, in consultation with TM, should list the SRO rule filings in
chronological order by rule number or undertake other appropriate measures to
ensure that all SRO proposed rule changes are easy to locate.

Recommendation R:
TM should ensure that the labels on the shelves inside its file room correctly identify .
the SRO rule files contained on each shelf.




SRO RULE FILING PROCESS                                                MARCH 31, 2008
AUDIT 438
                                                                          Page 37

                                                                   Appendix F

Recommendation S:

TM should take into account all of the suggestions described above regarding ways
to improve their review process, and in particular, should:
     • Articulate what criteria qualifies for accelerated approval and provide this
        information to the SROs; and
     • Provide guidance to its staff on when it is appropriate to request an
        amendment to a proposed rule change for non-substantive issues (e.g.,
        formatting issues, spelling and grammar errors, page number errors).




SRO RULE FILING PROCESS                                              MARCH 31, 2008
AUDIT 438
